                               CLOSEOUT FOR M93030015

        On March 22
                                                                       '   1                   --l-J

                           letter he had received from the complainant,                         an
        .. .  2
 assistant professor at the                             ! In his letter t h    e   w   t   h   a t




 the complainant was working on. The-complainantalleged that he had discussed his work~with
 the s u b k t and provided documents that suggested that the subiect could have substantiallv.
 benefited from his discussions with the com$ihant in the subject's   p- \
u
         In response'to OIG's q u e s t for information the subject stated that the -he        had
 identified and the one the complainant                          91           distinct. The subject
 provided copies of letters from several                     familiar with both the subject's and
 complainant's work which indicated                                complainant's allegations to be
 without merit. No substance could be found to the complainant's allegation of intellectual theft.

          OIG reviewed the subject's article and did not frnd a citation to NSF support. OIG found
  that the subject had received three grants from NSF over the period when the research on the
a             s conducted. None of these grants appeared relevant to that work. Program officers
  contacted by NSF agreed with this conclusion. In his response, the subject stated that NSF
  funds were not used in the research on or the reporting of the identification of ht-

         For OIG to consider an allegation of misconduct it must be related to activities funded
 by NSF or to an NSF employee. On the basis of OIG's review of the subject's NSF grants and
 statements from the subject and relevant NSF program officers, OIG concluded that NSF funds
 had not been used to perform the subject's research on the mammal. Therefore OIG lacked
 jurisdiction and closed this case without further action.




                                L ~
                                11/q,7.3

 Staff Scientist, Oversight




                                            Page 1 of 2
                                                               7   --




                            CLOSEOUT FOR M93030015


Concurrence:

                                               ,wA=d
/3/9-b?-u                       /lb/73                                              17 I93
Donald E. Buzzel3                              ~ar&esJ. ~ w o l &
Deputy Assistant Inspector General for         Assistant Inspector General for Oversight
Oversight



                 --

L. Nancy Birnbaum
Assistant Counsel to the Inspector General

cc:   Signatories
      Inspector General




                                         Page 2 of 2
